1a

PRECEDENTIAL

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_______________
No. 18-1042
_______________
MARY BARBATO
v.
GREYSTONE ALLIANCE, LLC; TURNING POINT
CAPITAL INC; CROWN ASSET MANAGEMENT LLC
Crown Asset Management LLC,
Appellant
_______________
On Appeal from the United States District Court
for the Middle District of Pennsylvania
(M.D. Pa. Civil Action No. 3-13-cv-02748)
Honorable Malachy E. Mannion, U.S. District Judge
_______________
Argued: September 6, 2018
Before: HARDIMAN, KRAUSE, and BIBAS, Circuit Judges
(Opinion Filed: February 22, 2019)

2a

Anthony J. Gingo
Michael J. Palumbo
Gingo Palumbo Law Group
4700 Rockside Road
Suite 440
Independence, OH 44131
Matthew R. Rosenkoff
Taylor English Duma
1600 Parkwood Circle
Suite 200
Atlanta, GA 30339

[ARGUED]

Counsel for Defendant-Appellant Crown Asset
Management LLC
Daniel A. Edelman
[ARGUED]
Edelman Combs Latturner & Goodwin
20 South Clark Street
Suite 1500
Chicago, IL 60603
Brett M. Freeman
Carlo Sabatini
Sabatini Law Firm
216 North Blakely Street
Dunmore, PA 18512
Counsel for Plaintiff-Appellee Mary Barbato

2

3a

_______________
OPINION OF THE COURT
_______________
KRAUSE, Circuit Judge.
The Fair Debt Collection Practices Act (“FDCPA”)
protects consumers from abusive, deceptive, or otherwise
unfair debt collection practices. 15 U.S.C. § 1692(a). It applies
to “debt collectors,” defined alternatively as those engaged “in
any business the principal purpose of which is the collection of
any debts” and those “who regularly collect[]” debts “owed or
due another.” Id. § 1692a(6). This appeal concerns only the
first definition and requires us to determine whether an entity
that acquires debt for the “purpose of . . . collection” but
outsources the actual collection activity qualifies as a “debt
collector.” The District Court held that it does, and we agree:
an entity that otherwise meets the “principal purpose”
definition cannot avoid the dictates of the FDCPA merely by
hiring a third party to do its collecting. We therefore will
affirm.
I.

Background
A.

Factual Background

Appellant Crown Asset Management (“Crown”) is a
purchaser of charged-off receivables, that is, accounts on
which a consumer has stopped paying the debt owed. When
Crown purchases an account, it determines if the debtor has
filed for bankruptcy or is deceased. If neither is the case,
Crown does not collect on the account itself; rather, it refers

3

4a

the charged-off receivable to a third-party servicer for
collection or it hires a debt collection law firm to file a
collection lawsuit on its behalf. Although Crown does not
contact consumers directly, it principally derives revenue from
liquidating the consumer debt it has acquired.
In this case, Appellee Mary Barbato obtained a
consumer credit card from GE Electric Capital Corporation
and GE Money Bank (collectively “GE”) in 2007. She made
her last payment on the account in November 2010, leaving an
outstanding balance. GE subsequently charged off that balance
and, after a number of sales and assignments, Crown purchased
Barbato’s debt. Pursuant to its standing service agreement
with collection agency Turning Point Capital, Inc. (“Turning
Point”), Crown then referred that debt to Turning Point for
collection.
Crown’s service agreement with Turning Point
explained that Crown was seeking “to procure certain
collection services” from Turning Point, and Turning Point
was agreeing to “undertake collection on each Account placed”
with it by Crown. App. 376. In addition, the agreement said
that Crown had the “sole and absolute discretion,” App. 378,
as to which accounts it would forward, that Crown’s obligation
to pay Turning Point was contingent upon Turning Point’s
success, and that Crown could establish settlement guidelines
from which Turning Point would have to obtain permission in
order to deviate.
Pursuant to this agreement, Turning Point sent Barbato
a collection letter in February 2013, identifying itself as a
“National Debt Collection Agency” and Crown as its client.
Turning Point also called Barbato and left her two voicemail

4

5a

messages. For its part, Crown did not have any direct
communication with Barbato regarding her account, nor did it
review or approve the letter sent to her by Turning Point.
When Barbato filed for bankruptcy, however, Crown recalled
Barbato’s account from Turning Point and subsequently closed
it.
B.

Procedural Background

Several months later, after Turning Point was absorbed
by Greystone Alliance, LLC (“Greystone”), Barbato filed a
state court complaint against Greystone, alleging that it had
violated the FDCPA. And after Greystone removed the action
to federal court, Barbato filed an amended complaint in which
she added Turning Point and Crown as defendants and alleged
that each was a “debt collector” as defined by the FDCPA.1
Turning Point was served but never answered. Barbato
eventually dismissed both Turning Point and Greystone from
the action, leaving only Crown as a defendant.
Barbato and Crown subsequently filed cross-motions
for summary judgment on, among other issues, the question
whether Crown was a debt collector. Barbato did not argue
1

Although of limited relevance for this appeal, the
specific conduct that Barbato alleged violated the FDCPA was
(1) that Turning Point left her voicemail messages without
disclosing that the calls were from a debt collector, as required
under 15 U.S.C. § 1692e(11), and (2) that Turning Point’s
letter neglected to inform her how to properly exercise her
validation rights, as required under 15 U.S.C. § 1692g.
Barbato purported to bring this latter claim on behalf of a
putative class of Pennsylvania residents.

5

6a

that Crown satisfied the “regularly collects” definition, i.e.,
that it “regularly collect[ed]” debts “owed or due another.” 15
U.S.C. § 1692a(6). Rather, she argued that Crown was a “debt
collector” because: (1) it purchased debts when they were in
default, which, under then-controlling precedent, was a
prerequisite to being considered a “debt collector” as opposed
to a “creditor”2—statuses we had deemed mutually exclusive
under § 1692a(6), see F.T.C. v. Check Inv’rs, Inc., 502 F.3d
159, 171 (3d Cir. 2007)—and (2) it satisfied the statute’s
“principal purpose” definition because the principal purpose of
its business was the collection of those defaulted debts, even if
it hired third-party debt collectors to do the collecting. 15
U.S.C. § 1692a(6); App. 209–10 (citing Pollice v. Nat’l Tax
Funding, L.P., 225 F.3d 379, 403–04 (3d Cir. 2000)). Crown
countered that, regardless of the default status of the debt,
Barbato could not prove it fit the “principal purpose” definition
because it took no collection action towards her and its
principal purpose was not the collection of debt but, rather, its
acquisition.
Siding with Barbato on these issues, the District Court
held that Crown was “acting as [a] ‘debt collector’” because:
(1) it acquired debts like Barbato’s when they were in default
and (2) the summary judgment record supported that Crown’s
“principal purpose” was the “collection of ‘any debts.’”
Barbato v. Greystone All., LLC, No. 3:13-CV-2748, 2017 WL
1193731, at *10 (M.D. Pa. Mar. 30, 2017). As to the second
ground, the Court found little difference between collecting on
The statute defines “creditor” as “any person who
offers or extends credit creating a debt or to whom a debt is
owed.” 15 U.S.C. § 1692a(4).
2

6

7a

charged-off receivables and referring charged-off receivables
to third-party independent servicers for collection. Instead,
given that Crown purchased debt, that ninety to ninety-five
percent of that debt came from consumers, and that Crown
referred all of that debt out for collection, the District Court
concluded that “Crown’s principal purpose is to acquire
accounts in ‘default’ for the purpose of collection.” Id. The
District Court nevertheless denied Barbato’s motion for
summary judgment, holding that she had not established that
Crown was vicariously liable for Turning Point’s conduct
because (1) in the District Court’s view, vicarious liability
could be imputed to Crown in these circumstances only if the
agent too was a “debt collector,” and (2) the evidence in the
record was insufficient to hold that Turning Point was a debt
collector under the FDCPA. The Court granted the parties
leave to file renewed motions for summary judgment to
address Turning Point’s status as a debt collector.
While these proceedings continued in the District Court,
however, the Supreme Court issued a decision that prompted
Crown to seek reconsideration of the District Court’s ruling
that it was a “debt collector.” In Henson v. Santander,
Consumer USA Inc., in interpreting the “regularly collects”
definition and deciding whether the entity there “regularly
collect[ed] . . . debts owed or due another,” 15 U.S.C. §
1692a(6), the Supreme Court held that it was irrelevant
whether the debt acquired and sought to be collected was in
default; instead, it held “[a]ll that matters is whether the target
of the lawsuit regularly seeks to collect debts for its own
account or does so for ‘another,’” 137 S. Ct. 1718, 1721, 1724
(2017). Construing that language to apply to § 1692a(6)
generally, Crown urged that it could no longer be considered a
debt collector, even under the “principal purpose” definition,

7

8a

because it too was collecting debts on its own behalf and not
for another. The District Court disagreed, holding that Henson
pertained only to the “regularly collects” definition of “debt
collector” and did not affect its holding that Crown was a debt
collector under the “principal purpose” definition. See Barbato
v. Greystone All., LLC, No. CV 3:13-2748, 2017 WL 5496047,
at *1, *9–*10 (M.D. Pa. Nov. 16, 2017).
Nevertheless, the District Court certified its decision for
interlocutory appeal and presented a controlling question of
law to this Court: “whether Henson requires a finding that
Crown is not a debt collector in this case when it was a thirdparty buyer of the debt, and the debt was in default at the time
it purchased it.” App. 34. Crown then filed a petition for
permission to file the interlocutory appeal and to appeal the
District Court’s denial of its motion for reconsideration, which
we granted.
II.

Jurisdiction and Applicable Standards

The District Court had jurisdiction under 28 U.S.C.
§ 1331, and we have jurisdiction over this interlocutory appeal
under 28 U.S.C. § 1292(b). When reviewing an interlocutory
appeal under 28 U.S.C. § 1292(b), we exercise plenary review
over the question certified. Florence v. Bd. of Chosen
Freeholders of Cty. of Burlington, 621 F.3d 296, 301 (3d Cir.
2010). The scope of our review, however, is not limited to the
question set forth in the certification motion but, rather,
includes any issue fairly included within the certified order.
See Yamaha Motor Corp., U.S.A. v. Calhoun, 516 U.S. 199,
205 (1996) (“As the text of § 1292(b) indicates, appellate
jurisdiction applies to the order certified to the court of

8

9a

appeals, and is not tied to the particular question formulated by
the district court.”).
“We review a denial of a motion for reconsideration for
abuse of discretion, but we review the District Court’s
underlying legal determinations”—its denial of summary
judgment to Crown in this case—“de novo and factual
determinations for clear error.” Howard Hess Dental Labs.
Inc. v. Dentsply Int’l, Inc., 602 F.3d 237, 246 (3d Cir. 2010).
Summary judgment is appropriate only where there is no
genuine issue as to any material fact. Fed. R. Civ. P. 56(c).
III. Discussion
On appeal, Crown contends that it does not qualify as a
“debt collector” under the “principal purpose” definition for
three reasons: First, the Supreme Court’s decision in Henson
undermined our prior precedent that would render it a debt
collector. Second, its principal purpose is the acquisition—not
the collection—of debt, and a faithful interpretation of the
statute requires that we distinguish between the two. And
third, the legislative history demonstrates that Congress
intended to regulate the proverbial “repo man,” not a “passive
debt owner” like Crown. Appellant Br. 32. We begin with a
brief overview of the FDCPA and, with that context for
Crown’s arguments, address—and reject—each in turn.
A.

The FDCPA

Congress enacted the FDCPA in 1977 “to eliminate
abusive debt collection practices by debt collectors” and “to
insure that those debt collectors who refrain from using abusive
debt collection practices are not competitively disadvantaged.”

9

10a

15 U.S.C. § 1692(e). It provides a private right of action
against debt collectors who violate its provisions. 15 U.S.C. §
1692k; see also Brown v. Card Serv. Ctr., 464 F.3d 450, 453
(3d Cir. 2006). “As remedial legislation, the FDCPA must be
broadly construed in order to give full effect to these
purposes.” Caprio v. Healthcare Revenue Recovery Grp.,
LLC, 709 F.3d 142, 148 (3d Cir. 2013).
“To prevail on an FDCPA claim, a plaintiff must prove
that (1) she is a consumer, (2) the defendant is a debt collector,
(3) the defendant’s challenged practice involves an attempt to
collect a ‘debt’ as the [FDCPA] defines it, and (4) the
defendant has violated a provision of the FDCPA in attempting
to collect the debt.” St. Pierre v. Retrieval-Masters Creditors
Bureau, Inc., 898 F.3d 351, 358 (3d Cir. 2018) (quoting
Douglass v. Convergent Outsourcing, 765 F.3d 299, 303 (3d
Cir. 2014)). The only element at issue in this case is the
second—whether Crown qualifies as a “debt collector.”
As noted, the statute defines “debt collector” as any
person (1) “who uses any instrumentality of interstate
commerce or the mails in any business the principal purpose of
which is the collection of any debts” (the “principal purpose”
definition), or (2) “who regularly collects or attempts to collect,
directly or indirectly, debts owed or due or asserted to be owed
or due another” (the “regularly collects” definition).3 15
The statute also provides two other definitions of “debt
collector,” neither of which is relevant here: “any creditor who,
in the process of collecting his own debts, uses any name other
than his own which would indicate that a third person is
collecting or attempting to collect such debts” and “any person
who uses any instrumentality of interstate commerce or the
3

10

11a

U.S.C. § 1692a(6). The statute thus provides two separate
paths to establishing an entity’s status as a “debt collector.”
See Henson, 137 S. Ct. at 1721.
As we recently had occasion to remark, the debt
collection industry has changed since Congress enacted the
FDCPA in 1977, and the simple creditor-debt collector duo has
been complicated by the advent and growth of debt buying.
See Tepper v. Amos Fin., LLC, 898 F.3d 364, 366 (3d Cir.
2018). With the proliferation of debt buying have come
questions about the boundaries of the statute’s definitions.
In Henson v. Santander, the Supreme Court clarified the
“regularly collects” definition.
There, Santander Bank
purchased loans once they were already in default and sought
to collect on them. 137 S. Ct. at 1720. Focusing on the plain
language of the statutory definition at issue, the Court held that
a third-party buyer of debt that seeks to collect debt owed to it
does not fit the second definition because it does not “regularly
seek to collect debts ‘owed . . . another.’” Id. at 1721. It
rejected the petitioners’ arguments that either the origin of the
debt or the default status of the debt had any bearing on that
analysis. As to the debt’s origin, it reasoned that the statutory
language did not suggest that “whether the owner originated
mails in any business the principal purpose of which is the
enforcement of security interests.” 15 U.S.C. § 1692a(6).
Excluded from the definition’s reach are, among others, a
creditor’s officers and employees who collect debts for the
creditor, an entity collecting a debt it originated, and an entity
collecting a debt it obtained that was not in default at the time
of purchase. Id. §§ 1692a(6)(A), (F).

11

12a

the debt or came by it only through a later purchase” was
relevant. Id. The Court similarly saw no basis in the text for
concluding that an entity that obtains debts after default
automatically qualifies as a “debt collector” under the
definition. See id. at 1724. “All that matters,” the Court
concluded, “is whether the target of the lawsuit regularly seeks
to collect debts for its own account or does so for ‘another.’”
Id. at 1721. Relevant for our purposes, the Court explicitly
declined to address whether such debt buyers could
nevertheless qualify as debt collectors under the “principal
purpose” definition. Id.
B.

Henson and Third Circuit Precedent

Crown’s primary argument on appeal is that Henson
abrogated our prior precedent such that it no longer qualifies
as a “debt collector” under the statute. Crown contends this is
so for two reasons: first, because Henson renders it a creditor,
not a debt collector, and the two statuses are mutually
exclusive; and second, because Henson rejected the so-called
“default” test on which we relied, thereby undermining “the
very foundation” of our prior caselaw. Appellant Br. 30.
Crown overstates the effect of Henson.
We need not dwell on Crown’s first argument because
our recent decision in Tepper v. Amos forecloses it. In Tepper,
the defendant was a company whose “sole business [wa]s
purchasing debts entered into by third parties and attempting
to collect them.” 898 F.3d at 369. The defendant claimed that
because it met the statutory definition of creditor—it was
trying to collect debts it owned and was thus an entity “to
whom [the] debt is owed”—it could not also be a debt
collector. Id. at 371 (quoting 15 U.S.C. § 1692a(4)). Like

12

13a

Crown, the defendant based this argument on Third Circuit
precedent that characterized the two statuses as “mutually
exclusive.” Id. (citing Check Inv’rs, 502 F.3d at 173); see also
Pollice, 225 F.3d at 403. Until Henson, as we explained, we
relied on the “default” test to determine whether an entity was
a creditor or a debt collector: either the entity obtained the debt
before default and was a creditor or it acquired the debt
afterwards and was a debt collector. Tepper, 898 F.3d at 366–
67. Given the binary nature of default status, an entity could
be only one or the other. But, we observed, Henson rejected
the “default” test, id. at 367, and with it, the basis for treating
the terms “debt collector” and “creditor” as mutually exclusive.
Following the Supreme Court’s direction to hew more closely
to the statutory definitions, we concluded that “an entity that
satisfies both [definitions] is within the Act’s reach.” Id. at
371. The same is true here.
As to Crown’s second argument about Henson’s overall
effect on our caselaw, it simply proves too much. While it is
no doubt true that Henson abrogated the default test on which
we relied to distinguish between creditors and debt collectors
and that it clarified the scope of the “regularly collects”
definition of debt collector, Henson did not address the other
prong of § 1692a(6)—the wholly separate “principal purpose”
definition. To the contrary, the Court conducted a close textual
analysis of the “regularly collects” definition, deriving from
that portion of the statute—which requires the entity to
“collect” debt “owed or due another”—that “[a]ll that matters
is whether the target of the lawsuit regularly seeks to collect
debts for its own account or does so for ‘another.’” 137 S. Ct.
at 1721. That requirement, however, does not appear in the
“principal purpose” definition, and the Supreme Court went
out of its way in Henson to say that it was not opining on

13

14a

whether debt buyers could also qualify as debt collectors under
that prong of § 1692a(6). See id.
But we have previously opined on this question—and in
similar circumstances. In Pollice v. National Tax Funding,
L.P., a debt buyer, National Tax Funding L.P. (“NTF”),
purchased delinquent municipal tax and utility claims from the
government. 225 F.3d at 385. Like Crown, NTF had no direct
contact with debtors; rather, it outsourced all of its collection
activities to others. Id. at 386. We concluded that NTF was a
debt collector both because it purchased debt in default—a fact
Henson has since rendered irrelevant—and also because “there
[was] no question that the ‘principal purpose’ of NTF’s
business is the ‘collection of any debts,’ namely, defaulted
obligations which it purchases from municipalities.” Id. at
404. The fact that someone else did the actual collecting did
not deter us from concluding that NTF was a “debt collector”
given that “NTF exist[ed] solely for the purpose of holding
claims for delinquent taxes and municipal obligations.” Id. at
404 n.27 (emphasis added). True, Pollice predated Henson,
but for the reasons we explain below, we continue to find its
logic persuasive.
C.

Statutory Interpretation

To determine whether Crown is a “debt collector” under
the “principal purpose” definition, we look first to the plain
meaning of the statutory text. See S.H. ex rel. Durrell v. Lower
Merion Sch. Dist., 729 F.3d 248, 257 (3d Cir. 2013). The text
states that “any person who uses any instrumentality of
interstate commerce or the mails in any business the principal
purpose of which is the collection of any debts” is a “debt
collector.” 15 U.S.C. § 1692a(6). Focusing on the word

14

15a

“collection,” which it defines as “the act or process of
collecting,” Crown argues that the “principal purpose”
definition applies only to those that engage in “overt acts of
collection” by interacting with consumers—not entities like
Crown that purchase debt and outsource the collection.
Appellant Br. 25, 31, 33.
As much as Crown might wish that it were otherwise,
nothing suggests that the definition is so limited. An entity
qualifies under the definition if the “principal purpose” of its
“business” is the “collection of any debts.” “Principal” is
defined as “most important, consequential, or influential,”
Principal, Webster’s Third New International Dictionary 1802
(1976) (“Webster’s Third”), and “purpose” is defined as
“something that one sets before himself as an object to be
attained : an end or aim” and “an object, effect, or result aimed
at, intended, or attained,” id. at 1847. Thus, an entity that has
the “collection of any debts” as its “most important” “aim” is
a debt collector under this definition. While it is true that
“collection” can be defined as “the act or process of
collecting,” it can also be defined as “that which is collected.”
Collection, Random House Dictionary of the English
Language 290 (1973). So defined, the focus shifts from the act
of collecting to what is collected, namely, the acquired debts.
As long as a business’s raison d’être is obtaining payment on
the debts that it acquires, it is a debt collector. Who actually
obtains the payment or how they do so is of no moment.
The statutory context of the “principal purpose”
definition casts further doubt on Crown’s argument that
Congress meant to limit it to only those entities that actively
collect from consumers. See Allen ex rel. Martin v. LaSalle
Bank, N.A., 629 F.3d 364, 367 (3d Cir. 2011) (“If the plain

15

16a

language fails to express Congress’ intent unequivocally . . .
we will examine the surrounding words and provisions in their
context.”) (citing Tavarez v. Klingensmith, 372 F.3d 188, 190
(3d Cir. 2004)). In contrast to the “regularly collects”
definition, where Congress explicitly used the verb “to collect”
in describing the actions of those it intended the definition to
cover, in the “principal purpose” definition, Congress used the
noun “collection” and did not specify who must do the
collecting or to whom the debt must be owed.4 15 U.S.C. §
1692a(6); see also Tepper, 898 F.3d at 370. Thus, by its terms,
the “principal purpose” definition sweeps more broadly than
the “regularly collects” definition, and we must presume that
the “legislature says . . . what it means and means . . . what it
says.” Henson, 137 S. Ct. at 1725 (quoting Dodd v. United
States, 545 U.S. 353, 357 (2005)).
In a plain language argument of its own, Crown retorts
that to find that it qualifies under the “principal purpose”
definition even though it outsources its collection activities
would be to read the word “indirectly” into the statute where it
does not appear. This is especially problematic, Crown
contends, because the “regularly collects” definition does
specify that an entity can collect “directly or indirectly,” while
Congress omitted this qualifier from the “principal purpose”
definition.

4

At both oral argument and in its supplemental briefing,
Crown argued that the word “collection” is a verb. It is not. It
is a noun. See Collection, Webster’s Third at 444 (denoting
with the abbreviation “n” that the word being defined is a
noun).

16

17a

We are unpersuaded. Again, the fact that the “regularly
collects” definition employs a verb and the “principal purpose”
definition employs a noun is critical. In the “regularly collects”
definition, the “directly or indirectly” qualification is
necessary because one could reasonably interpret “collect” to
refer to only direct efforts to collect—it is, after all, “a verb that
requires action.” Appellant Reply Br. 15 (citation omitted).
The “principal purpose” definition, however, needs no
such qualification. “Collection” by its very definition may be
indirect, and that is the type of collection in which Crown
engages: it buys consumer debt and hires debt collectors to
collect on it.5 The existence of a middleman does not change
the essential nature—the “principal purpose”—of Crown’s
business. As Barbato points out, Crown could buy debt for the
charitable purpose of forgiving it, or it could buy debt for the
purpose of reselling it to unrelated parties at a profit. In both
5

Although not addressed by the District Court or the
focus of the parties’ arguments on appeal, Barbato has
suggested that Crown itself collects debt because it is the
named plaintiff in many collection lawsuits. Because Crown’s
litigation efforts did not give rise to this appeal and we
conclude that Crown otherwise satisfies the “principal
purpose” definition, we need not address this argument. We
note, however, that Crown’s answer to it—that its litigation
efforts are irrelevant because its counsel, not Crown itself, does
the collecting by, for example, drafting the pleadings—is in
tension with our precedent, e.g., Pollice, 225 F.3d at 404–05
(recognizing that a debt collector may be held vicariously
liable for the conduct of its attorneys), and squarely refuted by
our holding today.

17

Case: 18-1042

Document: 003113167273
18a

Page: 18

Date Filed: 02/22/2019

of those cases, the entity’s “principal purpose” would not be
collection. But Crown does neither of those things. Indeed,
the record reflects that Crown’s only business is the purchasing
of debts for the purpose of collecting on those debts, and, as
Crown candidly acknowledged at oral argument, without the
collection of those debts, Crown would cease to exist. In short,
Crown falls squarely within § 1692a(6)’s “principal purpose”
definition.
D. Crown’s Purpose and Legislative History
Argument
Finally, Crown argues that the legislative history of the
FDCPA demonstrates that Congress did not intend for the
statutory definition of “debt collector” to apply to a “passive
debt owner” like itself but only to a repo man who was
personally hounding debtors to hand over the money they owe.
Appellant Br. 32. This argument is flawed in two respects.
First, it proves too much. There is no doubt that
“[d]isruptive dinnertime calls, downright deceit, and more
besides drew Congress’s eye to the debt collection industry.”
Henson, 137 S. Ct. at 1720. But even if the purpose of the
statute was to reach repo men, that purpose is furthered by
recognizing Crown as a debt collector under § 1692a(6).
Unlike a traditional creditor, such as a bank or a retail outlet
that has its own incentive to cultivate good will among its
customers and for which debt collection is one of perhaps
many parts of its business, an independent debt collector like
Crown has only one need for consumers: for them to pay their
debts. As market-based incentives go, that makes it far more
like a repo man than a creditor and gives it every incentive to
hire the most effective repo man to boot.

18

19a

Second, while the Supreme Court acknowledged in
Henson that “[e]veryone agrees that the term embraces the repo
man,” id., the language on which Congress settled sweeps
more broadly to include “any business the principal purpose of
which is the collection of any debts,” 15 U.S.C. § 1692a(6)
(emphasis added), without regard to whether that entity
delegates its collecting activities. The statute is clear, and
Crown’s argument fails for this reason as well: “[R]ecourse to
legislative history or underlying legislative intent is
unnecessary when a statute’s text is clear and does not lead to
an absurd result.” In re Phila. Newspapers, LLC, 599 F.3d 298,
317 (3d Cir. 2010) (quoting Hay Grp., Inc. v. E.B.S.
Acquisition Corp., 360 F.3d 404, 406 (3d Cir. 2004)).
E.

Issues for Remand

Of course, our holding that Crown is a debt collector
does not answer the ultimate question of liability, which turns
here on principles of vicarious liability. As the District Court
recognized, “when Congress creates a tort action, it legislates
against a legal background of ordinary tort-related vicarious
liability rules,” Barbato, 2017 WL 1193731, at *12 (quoting
Meyer v. Holley, 537 U.S. 280, 285 (2003)), and we have relied
on traditional agency principles in holding parties vicariously
liable under the FDCPA, see Pollice, 225 F.3d at 404–05, as
have other Courts of Appeals in the context of analogous
remedial statutes, see, e.g., Jones v. Federated Fin. Reserve
Corp., 144 F.3d 961, 965 (6th Cir. 1998) (applying agency
principles to determine vicarious liability under the Fair Credit
Reporting Act).
As Crown’s ultimate liability for the acts of Turning
Point was not the question certified in this interlocutory appeal

19

20a

nor the focus of the parties’ briefing, we will leave that issue
for the District Court’s consideration in the first instance. By
way of guidance on remand, however, we offer two brief
observations. First, to the extent Crown argues that the District
Court was obligated to find that Crown exerted actual control
over Turning Point in order to be held vicariously liable,
Crown misunderstands the tenets of agency law and our
precedent. See Meyer, 537 U.S. at 285–86 (explaining that the
principal-agent relationship requires that the principal either
control “or [have] the right to direct or control” the agent)
(emphasis added); see also Janetos v. Fulton Friedman &
Gullace, LLP, 825 F.3d 317, 326 (7th Cir. 2016) (interpreting
Pollice to mean that vicarious liability need not be based “on a
showing of actual control over the specific activity alleged to
violate the [FDCPA]”).
Second, in inviting further development of the record on
Turning Point’s own status as a “debt collector,” the District
Court assumed that Crown could not be held vicariously liable
for the acts of an agent under the FDCPA unless the agent
qualified as a “debt collector” in its own right. Barbato, 2017
WL 1193731, at *13. But our case law imposes no such
requirement; to the contrary, we have focused on whether the
principal qualifies as a debt collector because “an entity which
itself meets the definition of ‘debt collector’ may be held
vicariously liable for unlawful collection activities carried out
by another on its behalf.” Pollice, 225 F.3d at 404. And as we
explained in Pollice, and we reinforce today, this is “a fair
result because an entity that is itself a ‘debt collector’—and
hence subject to the FDCPA—should bear the burden of
monitoring the activities of those it enlists to collect debts on
its behalf.” Id. at 405.

20

21a

IV. Conclusion
For the foregoing reasons, we will affirm the District
Court’s order denying reconsideration of its summary
judgment decision and will remand for further proceedings
consistent with this opinion.

21

